            EVALUATION REPORT



                      Independent Evaluation of NRC’s
                        Implementation of the Federal
                    Information Security Management Act
                         (FISMA) for Fiscal Year 2005

                     OIG-05-A-21      September 30, 2005




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         September 30, 2005




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   INDEPENDENT EVALUATION OF NRC’S
                           IMPLEMENTATION OF THE FEDERAL
                           INFORMATION SECURITY MANAGEMENT ACT
                           (FISMA) FOR FISCAL YEAR 2005 (OIG-05-A-21)

Attached please find the Office of the Inspector General’s report, Independent
Evaluation of NRC’s Implementation of the Federal Information Security
Management Act (FISMA) for Fiscal Year 2005. This report reflects the results of
the independent evaluation performed by Richard S. Carson & Associates, Inc.,
on behalf of the NRC Office of the Inspector General.

Basing this review on the Office of Management and Budget’s criteria for FISMA
compliance, Richard S. Carson & Associates, Inc., determined that the NRC’s
information security program has several weaknesses.

During an exit conference on September 22, 2005, NRC officials provided
comments concerning the draft audit report and subsequently opted not to submit
formal written comments to this report.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Beth Serepca at 415-5911.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety andT
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              For Fiscal Year 2005




                            Contract Number: GS-00F-0001N
                          Delivery Order Number: DR-36-03-346

                                                 September 30, 2005




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2005


EXECUTIVE SUMMARY


BACKGROUND

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which includes
           an annual independent evaluation of the agency’s information security program1 and
           practices to determine their effectiveness. This evaluation must include testing of the
           effectiveness of information security policies, procedures, and practices of a
           representative subset of the agency’s information systems. FISMA requires the annual
           evaluation to be performed by the agency’s Inspector General (IG) or by an independent
           external auditor.

           Office of Management and Budget (OMB) memorandum M-05-15, FY 2005 Reporting
           Instructions for the Federal Information Security Management Act and Agency Privacy
           Management, dated June 13, 2005, requires the agency’s IG to complete the Reporting
           Template for Agency IGs. That template, along with any additional narrative the IG feels
           provides meaningful insight into the status of the agency’s security or privacy program, is
           submitted to OMB as part of the agency’s annual FISMA report.

           Richard S. Carson and Associates, Inc., (Carson Associates) performed an independent
           evaluation of the Nuclear Regulatory Commission’s (NRC) implementation of FISMA
           for FY 2005. This report presents the results of that independent evaluation. Carson
           Associates also prepared the Reporting Template for Agency IGs, along with additional
           narrative, for inclusion in the agency’s annual FISMA report. The Reporting Template
           for Agency IGs and the additional narrative is included as Appendix C to this report.

           The OIG also asked Carson Associates to evaluate the agency’s compliance with the
           Privacy Act. This request was made prior to OMB’s issuance of the FY 2005 FISMA
           reporting guidelines, which also include a requirement to report on implementation of the
           Privacy Act.

PURPOSE

           The objective of this review was to perform an independent evaluation of NRC’s
           implementation of FISMA for FY 2005.




1
    NRC uses the term information security program to describe its program for ensuring that various types of
    sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
    pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
    organizations. For the purposes of FISMA, the agency uses the term automated information security program.


                                                           i
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2005


RESULTS IN BRIEF

      While major deficiencies exist, NRC has made improvements to its automated
      information security program. For example:

         •   The agency has corrected 66 percent of its program level weaknesses and 7
             percent of its system level weaknesses reported on its plans of action and
             milestones (POA&Ms).
         •   The agency developed templates for risk assessments, security plans, security test
             and evaluation plans, security test and evaluation reports, contingency plans, and
             contingency plan test reports. The templates and instructions for their use are
             available on the NRC information technology (IT) security Web page. The
             templates were developed to ensure security documentation supporting system
             certification and accreditation is consistent with guidelines from the National
             Institute of Standards and Technology (NIST). The templates include a section or
             sections that specifically identify action items resulting from the certification and
             accreditation process to ensure corrective actions are tracked.
         •   The agency requires that the system certification package contain a spreadsheet of
             the plan to resolve issues identified during the certification process. This
             requirement is also presented on the agency’s IT security Web page.
         •   The agency modified the security plan template and the NRC version of the self-
             assessment based on NIST Special Publication (SP) 800-26, Self-Assessment
             Guide for Information Technology Systems, to ensure security protection
             requirements (confidentiality, integrity, and availability) are consistently defined.

      However, the independent evaluation identified the following automated information
      security program weaknesses.

         •   The majority of NRC systems have not been categorized in accordance with
             Federal Information Processing Standards (FIPS) Publication 199, Standards for
             Security Categorization of Federal Information and Information Systems.
         •   Agency self-assessments are not timely.
         •   Annual contingency plan testing is not being performed.
         •   The agency does not maintain documentation that demonstrates systems provided
             by other Federal agencies meet FISMA requirements.
         •   Oversight of other contractor systems is lacking.
         •   The agency’s inventory of information systems is only 51-70 percent complete
             because (1) information in the two systems that maintain inventory information is
             inaccurate and inconsistent and (2) only one system contains information on
             system interfaces and that information is also inaccurate and inconsistent. In
             addition, the agency’s inventory is not maintained and updated annually.




                                               ii
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2005


        •   E-authentication risk assessments completed in accordance with OMB M-04-04,
            E-Authentication Guidance for Federal Agencies, are incorrect and inconsistent
            with the systems’ FIPS 199 security categorizations.
        •   The agency is not always following OMB’s POA&M guidance and the metrics
            submitted to OMB deviate from the actual POA&Ms.
        •   The majority of the agency’s operational information systems (19 of 27) are
            operating under an interim authorization to operate (IATO), and therefore are not
            considered certified and accredited.
        •   The agency lacks procedures for ensuring employees with significant IT security
            responsibilities receive security training and awareness.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s automated information security program and implementation of FISMA. A
     consolidated list of recommendations appears on page 25 of this report.

AGENCY COMMENTS

     The OIG provided this report in draft to agency officials and discussed its content at an
     exit conference on September 22, 2005. We modified the report as we determined
     appropriate in response to our discussion. Agency officials generally agreed with the
     report’s findings and recommendations and opted not to include formal comments.




                                              iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2005




[Page intentionally left blank]




              iv
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2005


ABBREVIATIONS AND ACRONYMS


ADAMS               Agencywide Document Access and Management System
AIS                 Automated Information System
Carson Associates   Richard S. Carson and Associates, Inc.
CFR                 Code of Federal Regulations
CIO                 Chief Information Officer
Data Center         Data Center/Telecommunications System
DDMS                Digital Data Management System
EARS                Enterprise Architecture Repository System
EHD                 Electronic Hearing Docket
EIE                 Electronic Information Exchange
ERDS                Emergency Response Data System
ETS                 Emergency Telecommunications System
FIPS                Federal Information Processing Standard
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
GLTS                General License Tracking System
HLW EHD             High Level Waste Electronic Hearing Docket
HPCS                High Performance Computing System
IATO                Interim Authorization to Operate
IG                  Inspector General
IPSS                Integrated Personnel Security System
IT                  Information Technology
ITSSTS              Information Technology Systems Security Tracking System
LAN/WAN             Local Area Network/Wide Area Network
LSN                 Licensing Support Network
LTS                 License Tracking System
MD                  Management Directive
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
OCIMS               Operations Center Information Management System



                                              v
                                                            Independent Evaluation of
                                             NRC’s Implementation of FISMA for FY 2005


OIG       Office of the Inspector General
OIS       Office of Information Services
OMB       Office of Management and Budget
OPM       Office of Personnel Management
POA&M     Plan of Action and Milestones
RPS       Reactor Program System
SP        Special Publication
SQL       Structured Query Language
TAC       Technology Assessment Center
US-CERT   United States Computer Emergency Readiness Team
U.S.C.    United States Code




                                   vi
                                                                                                 Independent Evaluation of
                                                                                  NRC’s Implementation of FISMA for FY 2005


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1

2 Purpose .................................................................................................................... 1

3 Findings.................................................................................................................... 1
    3.1  Agency and Contractor Systems ................................................................... 3
    3.2  Agency Performance of FISMA Activities ..................................................... 5
         3.2.1 Certification and Accreditation............................................................................5
         3.2.2 Security Control Test and Evaluation ..................................................................6
         3.2.3 Contingency Planning and Testing ......................................................................8
    3.3 Agency Oversight.......................................................................................... 10
    3.4 Agency System Inventory ............................................................................ 12
    3.5 E-Authentication............................................................................................ 14
    3.6 Assessment of the POA&M Process ........................................................... 15
    3.7 Assessment of the Certification and Accreditation Process..................... 18
    3.8 Agency Security Configuration Policy ........................................................ 19
    3.9 Incident Detection and Handling Procedures ............................................. 20
    3.10 Security Awareness and Training................................................................ 21
    3.11 Agency Compliance with the Privacy Act ................................................... 23
4 Consolidated List of Recommendations ............................................................. 25

5 OIG Response to Agency Comments .................................................................. 26


Appendices

    Appendix A: Scope and Methodology ............................................................... 27
    Appendix B: Status of Contingency Plan Testing ............................................ 29
    Appendix C: FY 2005 FISMA Reporting Template for Agency Inspectors
                General and Additional Narrative ................................................. 33




                                                              vii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2005




[Page intentionally left blank]




              viii
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2005


1        Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included
FISMA.2 FISMA outlines the information security management requirements for agencies,
which includes an annual independent evaluation of the agency’s information security program
and practices to determine their effectiveness. This evaluation must include testing of the
effectiveness of information security policies, procedures, and practices of a representative
subset of the agency’s information systems. FISMA requires the annual evaluation to be
performed by the agency’s IG or by an independent external auditor.

OMB memorandum M-05-15 requires the agency’s IG to complete the Reporting Template for
Agency IGs. That template, along with any additional narrative the IG feels provides meaningful
insight into the status of the agency’s security or privacy program, is submitted to OMB as part
of the agency’s annual FISMA report.

Carson Associates performed an independent evaluation of NRC’s implementation of FISMA for
FY 2005. This report presents the results of that independent evaluation. Carson Associates also
prepared the Reporting Template for Agency IGs, along with additional narrative, for inclusion
in the agency’s annual FISMA report. The Reporting Template for Agency IGs and the
additional narrative is included as Appendix C to this report.

The OIG also asked Carson Associates to evaluate the agency’s compliance with the Privacy
Act.3 This request was made prior to OMB’s issuance of the FY 2005 FISMA reporting
guidelines, which also include a requirement to report on implementation of the Privacy Act.

2        Purpose

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2005.

3        Findings

While major deficiencies exist, NRC has made improvements to its automated information
security program.

    •    The agency has corrected 66 percent of its program level weaknesses and 7 percent of its
         system level weaknesses reported on its POA&Ms.



2
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
  Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
  which expired in November 2002.
3
  The Privacy Act of 1974 (5 U.S.C. § 552a), As Amended, was enacted to balance the Government’s need to
  maintain information about individuals with the rights of individuals to be protected against unwarranted invasions
  of their privacy resulting from the collection, maintenance, use, and disclosure of personal information. The
  Privacy Act safeguards confidentiality by limiting or restricting disclosure of personally identifiable records
  maintained by Federal agencies.


                                                          1
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2005


   •   The agency developed templates for risk assessments, security plans, security test and
       evaluation plans, security test and evaluation reports, contingency plans, and contingency
       plan test reports. The templates and instructions for their use are available on the NRC
       IT security Web page. The templates were developed to ensure security documentation
       supporting system certification and accreditation is consistent with guidelines from NIST.
       The templates include a section or sections that specifically identify action items resulting
       from the certification and accreditation process to ensure corrective actions are tracked.
   •   The agency requires that the system certification package contain a spreadsheet of the
       plan to resolve issues identified during the certification process. This requirement is also
       presented on the agency’s IT security Web page.
   •   The agency modified the security plan template and the NRC version of the self-
       assessment based on NIST SP 800-26 to ensure security protection requirements
       (confidentiality, integrity, and availability) are consistently defined.

However, the independent evaluation identified the following automated information security
program weaknesses.

   •   The majority of NRC systems have not been categorized in accordance with FIPS 199.
   •   Agency self-assessments are not timely.
   •   Annual contingency plan testing is not being performed.
   •   The agency does not maintain documentation that demonstrates systems provided by
       other Federal agencies meet FISMA requirements.
   •   Oversight of other contractor systems is lacking.
   •   The agency’s inventory of information systems is only 51-70 percent complete because
       (1) information in the two systems that maintain inventory information is inaccurate and
       inconsistent and (2) only one system contains information on system interfaces and that
       information is also inaccurate and inconsistent. In addition, the agency’s inventory is not
       maintained and updated annually.
   •   E-authentication risk assessments completed in accordance with OMB M-04-04 are
       incorrect and inconsistent with the systems’ FIPS 199 security categorizations.
   •   The agency is not always following OMB’s POA&M guidance and the metrics submitted
       to OMB deviate from the actual POA&Ms.
   •   The majority of the agency’s operational information systems (19 of 27) are operating
       under an IATO, and therefore are not considered certified and accredited.
   •   The agency lacks procedures for ensuring employees with significant IT security
       responsibilities receive security training and awareness.

The following sections present the detailed findings from the independent evaluation. The
format of the following sections is based on the FY 2005 FISMA Reporting Template for
Agency IGs, which can be found in Appendix C.



                                                 2
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2005


3.1      Agency and Contractor Systems

Agency Systems

FY 2005 FISMA Reporting Template for Inspectors General Question 1.a

                                    Table 3-1. FY 05 Agency Systems
                               FIPS 199 Risk              Total             Number
                                Impact Level             Number            Reviewed
                             High                              4                0
                             Moderate                          4                0
                             Low                               0                0
                             Not Categorized                  19                0
                             Total                            27                0

NRC has a total of 30 production systems. Of the 30, 12 are general support systems4 (all
operational), and 18 are major applications5 (15 operational, 3 in development). As required by
FISMA, the NRC Office of the Inspector General (OIG) selected five NRC operational systems
for evaluation during the FY 2005 FISMA independent evaluation. However, during a status
meeting with the agency, the OIG learned that the certification and accreditations of the systems
chosen for evaluation had either expired and the systems are operating under an IATO, or were
due to expire in FY 2005, and that their re-certification and re-accreditation would not be
completed before completion of the FY 2005 FISMA independent evaluation. Furthermore,
there were no other systems to substitute because they were either reviewed during the FY 2004
FISMA independent evaluation, or had certification and accreditations that were due to expire
before the end of the year. Without enough systems with current certification and accreditations,
Carson Associates could not perform an evaluation of a representative subset of agency systems
for the FY 2005 FISMA independent evaluation.

Contractor Systems

FY 2005 FISMA Reporting Template for Inspectors General Question 1.b

                                  Table 3-2. FY 05 Contractor Systems
                               FIPS 199 Risk              Total             Number
                                Impact Level             Number            Reviewed
                             High                             0                 0
                             Moderate                         0                 0
                             Low                              0                 0
                             Not Categorized                  7                 0
                             Total                            7                 0
4
  A general support system is an interconnected set of information resources under the same direct management
  control that share common functionality. Typical general support systems are local and wide area networks,
  servers, and data processing centers.
5
  A major application is a computerized information system or application that requires special attention to security
  because of the risk and magnitude of harm that would result from the loss, misuse, or unauthorized access to or
  modification of the information in the application.


                                                          3
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2005




NRC has a total of seven systems operated by a contractor or other organization on behalf of the
agency (two major applications and five general support systems). Of the seven, three are
operated by other Federal agencies, two are operated by federally funded research and
development centers, and two are operated by contractors supporting the agency. The OIG did
not review any of the seven systems operated by a contractor or other organization on behalf of
the agency for evaluation during the FY 2005 FISMA independent evaluation, as there were no
potential candidates to review. Of the seven, four6 were evaluated during the FY 2004 FISMA
independent evaluation (three operated by other Federal agencies and one operated by a federally
funded research and development center), and therefore were not candidates for review in FY
2005. The other three systems operated by a contractor or other organization on behalf of the
agency were not candidates for evaluation in FY 2005 because there was not sufficient
information available to perform an evaluation. The agency stated that in FY 2005 it would be
performing self-assessments in accordance with NIST SP 800-26 on its contractor systems.
However, the self-assessments were not completed in time for inclusion in the FY 2005 FISMA
independent evaluation.

Majority of NRC Systems Have Not Been Categorized in Accordance With FIPS 199

FIPS 199 requires all agencies to categorize their information and information systems. The
security categories are based on the potential impact on an organization should certain events
occur which jeopardize the information and information systems needed by the organization to
accomplish its assigned mission, protect its assets, fulfill its legal responsibilities, maintain its
day-to-day functions, and protect individuals. All systems must be categorized using FIPS 199
by February 2005.

However, despite the requirement to categorize all systems by February 2005, Carson Associates
found that the majority of NRC information systems, including systems operated by a contractor
or other organization on behalf of the agency, have not been categorized in accordance with FIPS
199. Specifically, only 8 of the 27 operational NRC information systems have been categorized
and none of the contractor systems have been categorized.

Not only is security categorization required by FIPS 199, it is needed to select the minimum
security controls for a system as defined in NIST SP 800-53, Recommended Security Controls
for Federal Information Systems. As a result, the agency cannot determine the appropriate
minimum security controls for its information systems and cannot determine whether the current
controls for the information systems are adequate.




6
    The FY 2004 FISMA independent evaluation included a review of three contractor operations and facilities. These
    three contractor operations and facilities support a total of four agency systems operated by a contractor or other
    organization on the behalf of the agency.


                                                            4
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2005


RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      1. Categorize all NRC information systems, including systems operated by a contractor or
         other organization on behalf of the agency, in accordance with FIPS 199.

3.2      Agency Performance of FISMA Activities

3.2.1 Certification and Accreditation

FY 2005 FISMA Reporting Template for Inspectors General Question 2.a

                    Table 3-3. Number of Systems Certified and Accredited
                    FIPS 199 Risk
                                         Agency       Contractor         Total
                     Impact Level
                  High                      1              0               1
                  Moderate                  0              0               0
                  Low                       0              0               0
                  Not Categorized           7              3              10
                  Total                     8              3              11

Agency Systems

As stated previously, during a status meeting with the agency the OIG learned that the
certification and accreditations of some agency information systems had either expired and the
systems are operating under an IATO, or were due to expire in FY 2005. Specifically, only 8 of
the 27 operational NRC information systems have full authorization to operate (i.e., they have a
current certification and accreditation). The lack of systems with current certification and
accreditations prompted OIG to request Carson Associates to undertake an overall review of the
NRC’s certification and accreditation efforts. Section 3.7 of this report discusses the OIG’s
assessment of the agency’s certification and accreditation process in detail.

Contractor Systems

Of the seven systems operated by a contractor or other organization on behalf of the agency, only
three have been certified and accredited. These three systems are operated by other Federal
agencies. NRC presumes that the two Federal agencies that operate these systems are also
following FISMA and NIST guidelines (these agencies have not allowed NRC to conduct their
own review). Carson Associates verified that there are agreements in place with the two Federal
agencies providing services to NRC and that the agreements include requirements to comply
with applicable Federal and respective agency information systems security policies, mandates,
and instructions. However, the agency does not maintain copies of all certification and
accreditation documentation for these systems. The other four systems operated by a contractor
or other organization on behalf of the agency have not been certified and accredited.




                                                  5
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2005


3.2.2 Security Control Test and Evaluation

FY 2005 FISMA Reporting Template for Inspectors General Question 2.b

           Table 3-4. Number of Systems With Tested and Evaluated Security Controls
                        FIPS 199 Risk
                                                  Agency          Contractor           Total
                         Impact Level
                      High                            2                 0                2
                      Moderate                        2                 0                2
                      Low                             0                 0                0
                      Not Categorized                14                 3               17
                      Total                          18                 3               21

Agency Systems

FISMA requires agencies to test and evaluate the security controls of every information system
identified in their inventory no less than annually. The necessary depth and breadth of an annual
FISMA review depends on several factors such as (1) the potential risk and magnitude of harm to
the system or data, (2) the relative comprehensiveness of last year’s review, and (3) the adequacy
and successful implementation of the POA&M for weaknesses in the system. For example, if
last year a system underwent a complete certification and accreditation, this year a relatively
simple update or maintenance review using NIST’s self-assessment guidance may be sufficient,
provided it has been adequately documented within the agency. Previous OMB FISMA
guidance stated agencies must use NIST SP 800-26 to conduct their annual reviews. The FY
2005 FISMA guidance allows agencies to continue to use NIST SP 800-26, or to conduct a self-
assessment against the controls found in NIST SP 800-53.

NRC meets the FISMA requirement to test and evaluate the security controls of agency
information system by performing annual self-assessments on the systems. As in previous years,
NRC developed self-assessment templates for major applications and general support systems.
For FY 2005 NRC also developed a site self-assessment template for security assessments at
regional offices, resident inspector sites, NRC locations other than headquarters and the regional
offices, and contractor sites hosting NRC information systems. The NRC self-assessment
templates are based on NIST SP 800-26 and include references to NIST SP 800-53 to provide a
general indication of control coverage. While the templates include references to NIST SP 800-
53, the intent is not to perform a self-assessment against the controls found in NIST SP 800-53,
but rather to provide organizations with a general indication of control coverage.

As of September 12, 2005, Carson Associates has only received self-assessments for 18 of
NRC’s 27 operational information systems.7 The first self-assessment was not received until
September 2, 2005. Subsequent to completion of field work, the agency provided self-
assessments for the other nine operational systems. However, these self-assessments were not
provided in time to review.



7
    One of the self-assessments addresses eight individual general support systems.


                                                            6
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2005


Contractor Systems

Of the seven systems operated by a contractor or other organization on behalf of the agency, only
three have had their security controls tested and evaluated in the last year. These three systems
are operated by other Federal agencies. NRC presumes that the two Federal agencies that
operate these systems are also following FISMA and NIST guidelines (these agencies have not
allowed NRC to conduct their own review), and have therefore conducted an annual review.
However, the agency does not request a copy of the annual review for these systems from the
other Federal agencies.

As previously discussed, the agency stated that in FY 2005 it would be performing self-
assessments on its contractor systems. However, Carson Associates has not received any self-
assessments for the four other systems operated by a contractor or other organization on behalf
of the agency. Subsequent to completion of field work, the agency provided self-assessments for
the four other systems operated by a contractor or other organization on behalf of the agency.
However, these self-assessments were not provided in time to review.

Agency Self-Assessments Are Not Timely

As stated previously, NRC meets the requirement for annual test and evaluation of security
controls for agency information systems by conducting self-assessments. The agency includes
self-assessment activities in its POA&Ms. The majority of self-assessments were scheduled for
completion by August 1, 2005, according to the 3rd Quarter FY 2005 POA&Ms submitted to
OMB. The agency also stated that it would be conducting self-assessments on regional offices,
resident inspector sites, NRC locations other than headquarters and the regional offices, and
contractor sites hosting NRC information systems.

However, despite the requirement to perform annual test and evaluation of security controls for
agency information systems, and despite the agency’s commitment to complete self-assessments
by August 1, 2005, Carson Associates found that self-assessments have been completed for only
18 of the agency’s 27 operational information systems (as of September 12, 2005). As a result,
the agency is not meeting FISMA requirements for performing annual test and evaluation of
security controls.

Lack of self-assessments also impacts the completeness of the OIG’s independent evaluation of
the agency’s implementation of FISMA. As required by FISMA, the OIG selects a subset of
agency information systems for evaluation. In addition to the detailed review of the subset of
agency information systems, the OIG also performs a high level review of all agency information
systems by reviewing their current self-assessments. However, for the FY 2005 FISMA
independent evaluation, the agency did not provide the OIG with the self-assessments in time to
perform the high level review.




                                                7
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2005


RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   2. Complete annual self-assessments for FY 2006 no later than August 1, 2006, and
      thereafter.

3.2.3 Contingency Planning and Testing

FY 2005 FISMA Reporting Template for Inspectors General Question 2.c

              Table 3-5. Number of Systems With Tested Contingency Plans
                   FIPS 199 Risk
                                        Agency        Contractor        Total
                    Impact Level
                 High                      0              0               0
                 Moderate                  1              0               1
                 Low                       0              0               0
                 Not Categorized           2              3               5
                 Total                     3              3               6

Agency Systems

NIST SP 800-34, Contingency Planning Guide for Information Technology Systems, states that
contingency plans should be tested at least annually and when significant changes are made to
the information system, supported business process(s), or the contingency plan. As of September
12, 2005, Carson Associates has only received results of contingency plan testing for 3 of NRC’s
27 operational information systems. Subsequent to the completion of field work, Carson
Associates was informed that contingency plan testing had been performed on 10 additional
agency systems (8 of which are general support systems resulting from the decomposition of the
agency’s local area network/wide area network general support system). However, the agency
has not provided documentation indicating the testing has been completed.

Contractor Systems

Of the seven systems operated by a contractor or other organization on behalf of the agency, only
three have had their contingency plans tested in the last year. These three systems are operated
by other Federal agencies. NRC presumes that the two Federal agencies that operate these
systems are also following FISMA and NIST guidelines (these agencies have not allowed NRC
to conduct their own review), and have therefore performed an annual contingency plan test of
their systems. However, the agency does not verify that the contingency plans have been tested
and evaluated for these systems on an annual basis. The agency does not have contingency plans
for the other four systems operated by a contractor or other organization on behalf of the agency.




                                                 8
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2005


Annual Contingency Plan Testing Is Not Being Performed

As stated previously, NIST SP 800-34 states that contingency plans should be tested at least
annually. However, despite this requirement, Carson Associates found that only 3 of the
agency’s 27 operational information systems have had their contingency plans tested in FY 2005.

The 3rd Quarter FY 2005 POA&Ms the agency submitted to OMB included information on the
status of contingency plan testing for the agency’s 24 operational information systems that have
not yet had their contingency plans tested. According to the 3rd Quarter FY 2005 POA&Ms, the
delays in testing the contingency plans are related to the delays in certifying and accrediting the
systems. The following is a summary of the reasons for the delays for the 24 systems that have
not had their contingency plans tested in FY 2005. See Appendix B for additional details on the
status of contingency plan testing.

   •   Of the 24, 18 are undergoing re-certification and re-accreditation (6 of the 18 have a
       current certification and accreditation and the other 12 have an expired certification and
       accreditation and are operating under an IATO).
   •   Of the 24, 4 are undergoing certification and accreditation for the first time.
   •   Of the 24, 1 is scheduled to be transitioned to a research and development role by
       December 31, 2005, and would no longer require certification and accreditation.
   •   Of the 24, 1 was not included with the 3rd Quarter FY 2005 POA&Ms, but this system is
       new, and is undergoing certification and accreditation for the first time.

The testing of contingency plans is essential in determining whether plans will function as
intended in an emergency situation. Without testing, the agency has limited assurance that it will
be able to recover mission-critical applications, business processes, and information in the event
of an unexpected interruption. Even a minor interruption could result in lost or incorrectly
processed data if the contingency plan has not been tested.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   3. Develop and implement procedures to ensure contingency plans are tested annually,
      regardless of the status of the systems’ certification and accreditation.




                                                 9
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2005


3.3        Agency Oversight

FY 2005 FISMA Reporting Template for Inspectors General Question 3.a

3.a. The agency performs oversight and evaluation to ensure                             Mostly, for example,
information systems used or operated by a contractor of the agency                      approximately 81-95% of
or other organization on behalf of the agency meet the requirements                     the time
of FISMA, OMB policy and NIST guidelines, national security
policy, and agency policy. Self-reporting of NIST Special
Publication 800-26 requirements by a contractor or other
organization is not sufficient, however, self-reporting by another
Federal agency may be sufficient.

FISMA requires agencies to provide information security protections commensurate with the risk
and magnitude of harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (1) information collected or maintained by or on behalf of the
agency and (2) information systems used or operated by an agency or other organization on
behalf of an agency.8 OMB M-05-15 provides examples of agency security responsibilities
concerning contractors and other sources. OMB M-05-15 describes the following primary
categories of contractors as they relate to securing systems and information.

       •   Service providers – encompasses typical outsourcing of system or network operations,
           telecommunications services, or other managed services. OMB states that agencies are
           fully responsible and accountable for ensuring all FISMA and related policy requirements
           are implemented and reviewed and such must be included in the terms of the contract.
           Agencies must ensure identical, not “equivalent,” security procedures. For example,
           annual reviews, risk assessments, security plans, control testing, contingency planning,
           and certification and accreditation must, at a minimum, explicitly meet guidance from
           NIST. NRC has three contractor systems that fit in this category. All three of these
           systems are operated by other Federal agencies.
       •   Contractor support – encompasses on or offsite contractor technical or other support
           staff. As with service providers, OMB states that agencies are fully responsible and
           accountable for ensuring all FISMA and related policy requirements are implemented and
           reviewed and such must be included in the terms of the contract. Agencies must ensure
           identical, not “equivalent,” security procedures. Specifically, the agency is responsible
           for ensuring the contractor personnel receive appropriate training (i.e., general and
           specific). NRC has two contractor systems that fit in this category.
       •   Government-owned, contractor-operated facilities – includes federally funded
           research and development centers. OMB states that these facilities are agency
           components and their security requirements are identical to those of the managing
           Federal agency in all respects. Security requirements must be included in the terms of the
           contract. NRC has two contractor systems that fit in this category. The managing
           Federal agency for one of the systems is NRC and the other is another Federal agency.

8
    Information systems used or operated by a contractor of an agency or other organization on behalf of the agency
    refers to information systems that the agency considers to be either major applications or general support systems.


                                                            10
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2005




Agency Does Not Maintain Documentation That Demonstrates Systems Provided By
Other Federal Agencies Meet FISMA Requirements

NRC presumes that the two Federal agencies that operate three of the seven contractor systems
are also following FISMA and NIST guidelines (these agencies have not allowed NRC to
conduct their own review). Carson Associates verified that there are agreements in place with
the two Federal agencies providing services to NRC and that the agreements include
requirements to comply with applicable Federal and respective agency information systems
security policies, mandates, and instructions. Carson Associates also verified that the agency has
copies of current security plans for two of the three systems. However, the agency does not (1)
maintain copies of all certification and accreditation documentation for these systems, (2) verify
that the security controls have been tested and evaluated for these systems on an annual basis,
and (3) verify that the contingency plans have been tested and evaluated for these systems on an
annual basis.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   4. Maintain current copies of certification and accreditation memoranda for systems
      provided by other Federal agencies.
   5. Maintain current copies of self-assessments for systems provided by other Federal
      agencies.
   6. Maintain current copies of annual contingency plan testing results for systems provided
      by other Federal agencies.

Oversight of Other Contractor Systems Is Lacking

The agency has not performed sufficient oversight and evaluation of four of the seven contractor
systems to ensure the information systems meet requirements of FISMA, OMB policy, NIST
guidelines, and agency policy. The agency stated that for two of the four systems (the two
contractor support systems), security guidelines are written into the relevant contracts and the
contractors must follow NRC security procedures. However, the agency has no documentation
demonstrating that these systems meet FISMA requirements, specifically the requirement for
certification and accreditation, annual testing and evaluation of security controls, and annual
contingency plan testing. Carson Associates could not determine how NRC performs oversight
of the other two contractor systems (the two federally funded research and development centers).

Oversight of other contractor systems is lacking because the agency lacks procedures for
performing this oversight. For example, Management Directive (MD) and Handbook 12.5, NRC
Automated Information Security Program, require all NRC major applications and general
support systems to be certified and accredited, and describes the procedures for accomplishing
certification and accreditation. However, MD and Handbook 12.5 do not describe procedures for
certifying and accrediting major applications and general support systems operated by a
contractor or other organization on behalf of the agency.


                                                11
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2005




RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      7. Develop and implement procedures for performing oversight of major applications and
         general support systems operated by a contractor or other organization on behalf of the
         agency.

3.4       Agency System Inventory

FY 2005 FISMA Reporting Template for Inspectors General Questions 3.b, 3.c, 3.d, 3.e

3.b. The agency has developed an inventory of major information             Approximately 51-70%
systems (including major national security systems) operated by or          complete
under the control of such agency, including an identification of the
interfaces between each such system and all other systems or
networks, including those not operated by or under the control of the
agency.
3.c. The OIG generally agrees with the CIO on the number of agency          No
owned systems.
3.d. The OIG generally agrees with the CIO on the number of                 Yes
information systems used or operated by a contractor of the agency or
other organization on behalf of the agency.
3.e. The agency inventory is maintained and updated at least annually.      No

FISMA requires agencies to develop and maintain an inventory of major information systems
operated by or under control of the agency. The inventory must include an identification of the
interfaces between each such system and all other systems or networks, including those not
operated by or under the control of the agency, and must be updated at least annually. The
inventory shall also be used to support information resources management.

MD and Handbook 12.5 assign the NRC Chief Information Officer (CIO) responsibility for
developing and maintaining a master inventory of all agency systems. MD and Handbook 2.1,
Information Technology Architecture, assign the NRC CIO responsibility for developing,
maintaining, and implementing the NRC Information Technology Architecture. The agency
maintains two inventories, the Information Technology Systems Security Tracking System
(ITSSTS) and the Enterprise Architecture Repository System (EARS), to meet the requirements
outlined in MD and Handbooks 12.5 and 2.1, respectively.

While FISMA only requires agencies to maintain an inventory of major information systems
(major applications and general support systems), NRC also includes two other types of systems
in its inventories.

      •   Listed – a computerized information system or application that (1) processes sensitive
          information requiring additional security protections and (2) may be important to an NRC



                                                 12
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2005


       office’s or region’s operations, but which is not a major application or general support
       system when viewed from an agency perspective. Sensitive data may include individual
       Privacy Act information, law enforcement sensitive information, sensitive contractual
       and financial information, safeguards, and classified information.
   •   Other – an NRC system that does not require additional security protections and is
       adequately protected by the security provided by the NRC local area network/wide area
       network.

Carson Associates found that the agency’s inventory is only 51-70 percent completed because
(1) information in both ITSSTS and EARS is inaccurate and inconsistent and (2) only EARS
contains information on system interfaces and that information is also inaccurate and
inconsistent. Carson Associates generally agrees with the CIO on the number of agency owned
major applications and general support systems, but does not agree with the CIO on the number
of agency owned systems in the listed and other categories. Carson Associates also found that
the agency’s inventory is not maintained and updated at least annually.

As requested by the OIG, Carson Associates conducted a separate evaluation of the agency’s
automated information system (AIS) inventory process. The findings from this review were
reported separately under OIG-05-A-22, Office of the Inspector General Evaluation of NRC’s
Automated Information System Inventory Process. The report made seven recommendations to
the agency to improve its inventory process. The following is a summary of the findings from
the evaluation of NRC’s AIS inventory process.

The evaluation of the agency’s AIS inventory process found that (1) information in NRC AIS
inventories is inaccurate and inconsistent and (2) NRC AIS inventory systems are not designed
to capture all of the data needed to meet FISMA requirements. The information in NRC AIS
inventories is inaccurate and inconsistent because the procedures for maintaining and updating
AIS inventories are inadequate. Specifically, the agency (1) lacks procedures for updating AIS
inventories with information collected from office directors, regional administrators, and system
sponsors/owners, (2) provides insufficient guidance to office directors, regional administrators,
and system sponsors/owners when requesting information for the AIS inventories, (3) lacks
procedures for adding new systems to the AIS inventories, and (4) lacks procedures for updating
information for systems already in the inventory. The lack of adequate procedures not only
results in the inaccurate and inconsistent data, but also results in duplicative efforts for NRC
offices.

As a result of inaccurate and inconsistent data in the AIS inventories, the agency lacks a
complete understanding of what AISs are currently in use, and therefore cannot support two of
the five areas of information resources management specified by FISMA. Without an accurate
AIS inventory, the agency cannot adequately plan, budget, acquire, and manage information
technology without first knowing what information technology is currently in place. The agency
also cannot adequately monitor, test, and evaluate security controls for AIS as required by
FISMA.

Neither ITSSTS nor EARS were designed to capture all of the data needed to fully meet
FISMA’s requirement to develop an inventory of major information systems that shall be used to


                                                13
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2005


support information resources management. For example, only one inventory system captures
the data needed to indicate which systems include Privacy Act data, and not all systems that
include Privacy Act data are correctly identified. Therefore the agency cannot provide effective
privacy protections, and cannot test and evaluate those protections, if it cannot identify which
systems contain Privacy Act data. In addition, neither inventory system captures the data needed
to support (1) preparation and maintenance of the inventory of information resources required to
support the Government Information Locator Service, (2) preparation of the index of major
information systems required under the Freedom of Information Act, and (3) preparation of
information system inventories required for records management.

3.5      E-Authentication

FY 2005 FISMA Reporting Template for Inspectors General Questions 3.f

3.f. The agency has completed system e-authentication risk               No
assessments.

In FY 2004, the agency stated that it had begun assessing systems for e-authentication risk in
accordance with OMB M-04-04. A contract was awarded in the 3rd Quarter FY 2004 and the
agency stated that it was on track to meet the December 15, 2004, deadline for classifying all
major applications. OMB M-04-04 required all systems classified as “major” to implement the
guidance by December 15, 2004, and the remaining systems to implement the guidance by
September 15, 2005. New systems are required to implement the guidance within 90 days of the
completion of the final e-authentication technical guidance issued by NIST (NIST issued the
final guidance in June 2004).

E-Authentications Are Incorrect and Inconsistent

Despite these requirements, and the agency’s previous statement that it was on track to meet the
December 15, 2004, deadline for classifying all major applications, Carson Associates found that
e-authentication risk assessments have been completed for only 6 of the agency’s 27 operational
systems. The agency stated that e-authentication risk assessments will be supported under the
interim Information Systems Security contract awarded August 11, 2005, and are expected to be
completed by December 15, 2005. Carson Associates reviewed the completed e-authentication
risk assessments and found them to be incorrect and inconsistent with the systems’ FIPS 199
security categorizations. For example, in some instances, the e-authentication assurance level
was incorrectly determined based on the impact levels assigned to the six categories of harm and
impact defined in OMB M-04-04. In other instances, the impact levels assigned to the six
categories of harm and impact are not consistent with the FIPS 199 security categorizations of
the systems.

RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      8. Review and update the six completed e-authentication risk assessments to correct
         inaccuracies and inconsistencies with FIPS 199 security categorizations.


                                                14
                                                                                  Independent Evaluation of
                                                                   NRC’s Implementation of FISMA for FY 2005


      9. Develop and implement a plan for completing the remaining e-authentication risk
         assessments.

3.6       Assessment of the POA&M Process

FY 2005 FISMA Reporting Template for Inspectors General Question 4

4.a. The POA&M is an agency wide process, incorporating all                  Almost Always, for
known IT security weaknesses associated with information systems             example, approximately
used or operated by the agency or by a contractor of the agency or           96-100% of the time
other organization on behalf of the agency.
4.b. When an IT security weakness is identified, program officials           Almost Always, for
(including CIOs, if they own or operate a system) develop,                   example, approximately
implement, and manage POA&Ms for their system(s).                            96-100% of the time
4.c. Program officials, including contractors, report to the CIO on a        Almost Always, for
regular basis (at least quarterly) on their remediation progress.            example, approximately
                                                                             96-100% of the time
4.d. CIO centrally tracks, maintains, and reviews POA&M activities           Almost Always, for
on at least a quarterly basis.                                               example, approximately
                                                                             96-100% of the time
4.e. OIG findings are incorporated into the POA&M process.                   Almost Always, for
                                                                             example, approximately
                                                                             96-100% of the time
4.f. POA&M process prioritizes IT security weaknesses to help                Almost Always, for
ensure significant IT security weaknesses are addressed in a timely          example, approximately
manner and receive appropriate resources.                                    96-100% of the time

NRC has two primary tools for tracking IT security weaknesses associated with information
systems used or operated by the agency or by a contractor of the agency or other organization on
behalf of the agency. At a high level, NRC uses the POA&Ms submitted to OMB to track
corrective actions from the OIG annual independent evaluation and the agency’s annual review.
The POA&Ms may also include corrective actions resulting from other security studies
conducted by or on behalf of NRC.

At a more detailed level, NRC uses the ITSSTS to track the progress of more specific corrective
actions, such as those resulting from risk assessments, security test and evaluation associated
with the certification and accreditation process, and contingency plan testing.

The FY 2004 FISMA independent evaluation found that the agency’s corrective action tracking
process needed further improvement. Specifically, findings and recommendations resulting from
security reviews and testing are not consistently being tracked and the agency’s POA&M needed
improvement. To address these weaknesses, the agency performed the following corrective
actions.

      •   The agency developed templates for risk assessments, security plans, security test and
          evaluation reports, and contingency plan test reports that include a section or sections that


                                                   15
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2005


       specifically identify action items resulting from the certification and accreditation process
       that should be tracked in ITSSTS. The templates and instructions for their use are
       available on the NRC IT security Web page. The agency also requires that the system
       certification package contain a spreadsheet of the plan to resolve issues identified during
       the certification process. This requirement is also presented on the IT security Web page.
   •   The agency reports corrected weaknesses on the POA&Ms for a year after their
       completion.
   •   The agency includes a completion date in the Status column of the POA&Ms.

In addition to improving its corrective action tracking progress, the agency has also made some
progress in correcting weaknesses reported on its POA&Ms. The agency has corrected 66
percent of its program level weaknesses; however the agency has corrected only 7 percent of its
system level weaknesses. The majority of delays have been caused by delays in completing
certifications and accreditations, as described later in this report in Section 3.7.

In assessing the agency’s POA&M process, Carson Associates also found that the agency is not
always following OMB’s POA&M guidance and that the metrics submitted to OMB often
deviated from the actual POA&Ms.

NRC Has Made Some Progress in Correcting Weaknesses Reported on Its POA&Ms

The agency carried over a total of 2 program level and 12 system level weaknesses from FY
2004 into FY 2005. The following tables provide statistics from the three FY 2005 POA&Ms
the agency has submitted to OMB.

                        Table 3-6. Program Level POA&Ms Statistics
                                                                                           # For Start
            # At Start of                      #
 Quarter                         # New                    # On-going       # Delayed         of Next
              Quarter                       Completed
                                                                                            Quarter
 Q1               2                10            3             7                2                9
 Q2               9                0             3             4                2                6
 Q3               6                0             2             2                2                4

                            Table 3-7. System Level POA&Ms Statistics
                                                                                           # For Start
             # At Start of                     #
 Quarter                          # New                    # On-going      # Delayed         of Next
               Quarter                      Completed
                                                                                             Quarter
 Q1               12               78            5             80                5              85
 Q2               85               38            1             82               40             122
 Q3              122               10            3             51               78             129

The following table summarizes the total number of weaknesses included in the FY 2005
POA&Ms, the total number of corrective actions the agency has reported as completed, the total
number of corrective actions that are still on-going, and the number of corrective actions whose
completion has been delayed.



                                                16
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2005


             Table 3-8. Summary of FY 2005 POA&Ms Through the 3rd Quarter
                         Total #         Total #         Total #        Total #          %
                       Weaknesses       Completed       On-going        Delayed       Completed
       Program Level         12              8              2               2             66%
       System Level         138              9             51              78             7%

The Agency Is Not Always Following OMB’s POA&M Guidance

As stated previously, the agency is not always following OMB’s POA&M guidance. The
following are some examples of deviations from OMB’s POA&M guidance found on the 2nd
Quarter FY 2005 POA&Ms.

   •    A system level weakness was completely changed from the previous quarter. Data in the
        Weakness, Scheduled Completion Date, and Milestones with Completion Dates columns
        was changed. OMB guidance states that these columns should not be modified.
   •    Eight weaknesses had changes in the Scheduled Completion Date column. This column
        should not be modified.
   •    A system level weakness had comments added to the Milestones with Completion Dates
        column. This column should not be modified.
   •    Five system level weaknesses had minor modifications to dates in the Milestones with
        Completion Dates column. For example, a date in the format “May 2005” was modified
        to include the day of the week (e.g., 1-May-05). While this column should not be
        modified, the changes did not result in a change in a completion date.
   •    Two system level weaknesses had modifications to dates in the Milestones with
        Completion Dates column to correct typographical errors identified in a previous quarter
        (the year was incorrect in the previous quarter). The dates were also modified to include
        the day of the week. While this column should not be modified, the changes were to
        correct a typographical error. However, in both cases, one milestone date was also
        modified.
   •    One system level weakness had a milestone date in the 1st Quarter FY 2005 POA&Ms of
        31-Jan-05. On the 2nd Quarter FY 2005 POA&Ms, the date was 08-Dec-04, which is a
        date that has already passed. Milestone dates for ongoing or delayed tasks should not be
        modified to a date that has already passed.

Carson Associates also found similar deviations from OMB’s POA&M guidance on the 3rd
Quarter FY 2005 POA&Ms. While the agency is not always following OMB’s POA&M
guidance, the agency is using the POA&Ms to track all known security weaknesses. Program
officials report to the CIO on a quarterly basis on their remediation process. In some cases,
program officials are required to report to the CIO on a monthly basis.

Metrics Submitted to OMB Deviate from the Actual POA&Ms

In addition to the deviations from OMB’s POA&M guidance, Carson Associates also found
discrepancies between the metrics submitted to OMB and the actual POA&Ms. However, the


                                                 17
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2005


discrepancies in the metrics are not significant enough to report as a weakness and are due, in
part, to the large number of weaknesses being tracked on the agency’s POA&Ms.

3.7       Assessment of the Certification and Accreditation Process

FY 2005 FISMA Reporting Template for Inspectors General Question 5

5. Assess the overall quality of the Department's certification and        Poor
accreditation process.

The FY 2004 FISMA independent evaluation found that the agency’s certification and
accreditation process needed improvement. Specifically, the agency needed to develop
processes for (1) ensuring security documentation supporting system certification and
accreditation is consistent with NIST guidelines, (2) ensuring security protection requirements
(confidentiality, integrity, availability) are consistently defined in security plans and self-
assessments, and (3) ensuring security test and evaluation in support of certification and
accreditation is comprehensive and independent. To address these weaknesses, the agency
performed the following corrective actions.

      •   The agency developed templates for risk assessments, security plans, security test and
          evaluation plans, security test and evaluation reports, contingency plans, and contingency
          plan test reports. The templates and instructions for their use are available on the NRC
          IT security Web page. The templates were developed to ensure security documentation
          supporting system certification and accreditation is consistent with NIST guidelines.
      •   The agency modified the security plan template and the NRC version of the NIST SP
          800-26 self-assessment to ensure security protection requirements (confidentiality,
          integrity, and availability) are consistently defined.
      •   The agency developed standard templates and instructions on their use for the security
          test and evaluation process. The templates and instructions are available on the NRC IT
          security Web page. The templates were developed to ensure security test and evaluation
          in support of certification and accreditation is comprehensive and independent.

Despite the improvements in the agency’s certification and accreditation process, Carson
Associates found that the majority of the agency’s operational information systems operating
under an IATO and therefore are not considered certified and accredited. As stated previously,
only 8 of the 27 operational NRC information systems have full authorization to operate (i.e.,
they have a current certification and accreditation). As a result, the OIG requested Carson
Associates to undertake an overall review of the NRC’s certification and accreditation efforts.
The findings from this review were reported separately under OIG-05-A-20, Office of the
Inspector General Evaluation of NRC’s Certification and Accreditation Efforts. The report
made two recommendations to the agency to improve certification and accreditation efforts. The
following is a summary of the findings from the evaluation of NRC’s certification and
accreditation efforts.




                                                  18
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2005


NRC’s general support systems have not had a complete certification and accreditation
performed in the past 3 years. Therefore the agency does not know whether the security controls
for these general support systems are adequate, creating unknown potential risk. As a result, all
NRC information systems that depend on the security controls provided by these general support
systems inherit that unknown potential risk. The majority of NRC information systems are not
certified and accredited because (1) the certification and accreditation has lapsed or was never
completed and (2) NRC information systems are being re-certified and re-accredited using new
NIST requirements.9 As a result, potential risks to agency information systems are unknown.

3.8        Agency Security Configuration Policy

FY 2005 FISMA Reporting Template for Inspectors General Questions 6.a, 6.b

6.a. Is there an agency wide security configuration policy?                          Yes
6.b. Are configuration guides available for the products listed in the               Yes
FY 2005 FISMA Reporting Template?

The agency has implemented several policies that address security configurations and their
implementation. In May 2003, the agency developed the NRC System Security Baseline
Implementation Plan, with an objective to establish, develop, implement, maintain, and verify
secure baseline configurations for all information systems. The NRC program is primarily based
on the Center for Internet Security’s benchmarks and scoring tools. NRC personnel compiled
and researched recommended “best practice” technical settings and actions and developed “in
house” benchmarks for those platforms for which a benchmark has yet to be developed. The
following platforms were the focus of the initiative:

      •    Microsoft NT
      •    Microsoft Windows 2000
      •    Novell NetWare
      •    Sun Solaris
      •    IBM AIX
      •    Linux

The scope of the plan is all NRC systems running operating systems listed above and includes all
systems that are currently in an “active” state and are components of the primary NRC network.
Subsequent to the implementation of the System Security Baseline Implementation Plan, the
agency has begun using the following additional benchmarks and configuration guides.

      •    Windows 2003 Domain Controllers and Member Servers (Center for Internet Security)
      •    Microsoft Internet Information Server (National Security Agency)

9
    NRC information systems are being re-certified and re-accredited in accordance with the minimum security
    controls for information systems defined in NIST SP 800-53, Recommended Security Controls for Federal
    Information Systems.


                                                          19
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2005


      •   Microsoft SQL Server (National Security Agency)
      •   Router security configuration guide (National Security Agency)
      •   CISCO router Internet operating system (Center for Internet Security)
      •   CISCO PIX firewall (Center for Internet Security)
      •   HP-UX (Center for Internet Security)
      •   Apache (Center for Internet Security)
      •   Oracle (Center for Internet Security)

Oracle and Apache are currently not in production and are being tested for planned future
production use. Hardening guidelines for Microsoft Internet Information Server are included
with the Windows 2000/2003 configuration guides. The agency also uses Sybase, for which no
specific configuration guides exist. However, the agency followed best practices and product
guidelines from the vendor.

The Office of Information Services (OIS) has recently posted requirements on the NRC internal
IT security Web page for the use of hardening specifications developed by the Center for Internet
Security for all systems using Windows Server 2003 and Red Hat Linux. All deviations from the
specification must be justified. Areas where the specification says: “if absolutely necessary”
require justification of the “absolutely necessary” use of the feature. The same applies to the
“disable if possible” areas (justify not disabling).

For desktops, NRC has developed a standard image for Windows XP that is based on NIST best
practices. All desktops at NRC were upgraded to Windows XP in the past year. NRC uses
workstation upgrades that are “pushed” at login to keep desktop configurations consistent across
NRC. LANDesk can also be used to push upgrades to the desktops. NRC Announcements are
used to announce agency workstation updates. The announcements describe the nature of the
upgrade and that it will occur using an automated procedure that will occur during network login.
The announcement includes, as an attachment, the schedule of when the upgrade will take place
for each office in NRC.

NRC has also developed system security screening guidelines for preparing new systems for
implementation into the NRC production operating environment. The security screening ensures
that the system configuration meets NRC network security requirements. The guidelines outline
the steps necessary to request and perform the security screening process, guidance on managing
and developing a secure system, and industry best practices and additional resources.

3.9       Incident Detection and Handling Procedures

FY 2005 FISMA Reporting Template for Inspectors General Question 7

7.a. The agency follows documented policies and procedures for            Yes
identifying and reporting incidents internally.




                                                  20
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2005


7.b. The agency follows documented policies and procedures for                        Yes
external reporting to law enforcement authorities.
7.c. The agency follows defined procedures for reporting to the                       Yes
United States Computer Emergency Readiness Team (US-CERT).

NRC’s Information Systems Security Incident Response Procedures (MD and Handbook 12.5
Appendix B) formalizes the agency’s procedures for monitoring, detecting, reporting, and
responding to information systems security incidents, and includes procedures for reporting
incidents internally, for external reporting to law enforcement, and for reporting to the United
States Computer Emergency Readiness Team (US-CERT).10 The most current version of the
incident response procedures are maintained on the agency’s IT Web site.

The document defines the roles and responsibilities for reporting and responding to information
systems security incidents. When criminal activity is suspected or confirmed, the procedures
assign the OIG responsibility for contacting and coordinating the response with law enforcement
officials.

3.10       Security Awareness and Training

FY 2005 FISMA Reporting Template for Inspectors General Questions 8, 9

8. Has the agency ensured security training and awareness of all                      Mostly, or approximately
employees, including contractors and those employees with                             81-95% of employees
significant IT security responsibilities?                                             have sufficient training
9. Does the agency explain policies regarding peer-to-peer file                       Yes
sharing in IT security awareness training, ethics training, or any
other agency wide training?

All new NRC employees (including contractors, interns, and summer hires) are required to
attend orientation the first day they report for duty. During the orientation a brief presentation is
made by a member of the OIS, Program Management, Policy Development, and Analysis Staff,
Computer Security Team, which includes a discussion on appropriate use of information
technology equipment. In addition, a member of the Office of the General Counsel also presents
a section on ethics which includes additional discussions on appropriate use of the Internet.

All employees, including contractors, are required to take the on-line Computer Security
Awareness course as soon as they receive a network UserID and every year thereafter. OIS
maintains a database of personnel who have taken the security awareness course and cross
checks the list on a regular basis with an employee list provided by NRC Human Resources. A
member of the Computer Security Team sends a message to offices around the first of the month
reminding them to have their employees take the course. Information System Security Officers
must sign an acknowledgement of their responsibilities when taking the position and are required
to take an on-line Information System Security Officer training course in addition to the on-line
Computer Security Awareness course.
10
      The procedures actually reference reporting to the Federal Computer Incident Response Center, which was
     replaced with the US-CERT when the Department of Homeland Security was established.


                                                          21
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2005




NRC meets the Office of Personnel Management (OPM) requirement to expose employees to
security awareness materials at least annually by (1) mandating all NRC staff take the NRC
Computer Security Awareness course annually and by documenting who takes the annual
training, (2) using posters, flyers, Web pages, NRC Yellow Announcements,11 NRC
Announcements,12 and articles/notices in the NRC monthly newsletter to keep computer security
on everyone’s mind throughout the year, and (3) by holding the Annual NRC Computer Security
Awareness Day event.

The agency is in the process of developing a computer security awareness and training program
plan to fully implement the requirements outlined in OMB Circular A-130, Management of
Federal Resources, Appendix III, Security of Federal Automated Information Resources,
FISMA, MD and Handbook 12.5, and OPM’s final regulations concerning information
technology security awareness (5 CFR Part 930, Subpart C, effective June 14, 2004).

Agency staff and contractors are advised of the dangers of peer-to-peer applications during their
annual Web-based security training. The on-line Computer Security Awareness course includes
a discussion of the dangers of peer-to-peer applications such as instant messaging. Current
agency policy does not explicitly prohibit peer-to-peer applications, however the agency is
blocking sites that support the unauthorized reproduction of copyrighted material, i.e., peer-to-
peer and file sharing Web sites.

Agency Lacks Procedures for Ensuring Employees With Significant IT Security
Responsibilities Receive Security Training and Awareness

The agency stated that it had difficulty in gathering the information needed to report on the total
number of employees with significant IT security responsibilities, the number of those
employees who have received specialized training as described in NIST SP 800-16, Information
Technology Security Training Requirements: A Role- and Performance-Based Model, and the
total costs for providing IT training. The agency’s training system does not identify which
employees have significant IT security responsibilities and what courses are considered related to
IT security. The agency gathered its data by asking each office and region to identify staff in
their offices with significant IT security responsibilities, describe any training that is related to IT
security that those staff members have taken, and the cost of that training. The agency’s training
system also does not account for any training the employee may have taken on their own time.




11
    NRC Yellow Announcements (formerly Yellow Announcements) establish new policies, practices, or procedures;
   introduce changes in policy, senior staff assignments, or organization; or address major agencywide events. These
   announcements require signature and are retained as permanent records in ADAMS.
12
    NRC Announcements (formerly Network Announcements) communicate information of major significance or
   interest to agency employees, as well as urgent or time-sensitive information. These announcements do not
   require signature.


                                                         22
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2005


RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   10. Develop and implement procedures for ensuring employees and contractors with
       significant IT security responsibilities are identified, receive security awareness and
       training, and the individual and associated training are readily identifiable.

3.11   Agency Compliance with the Privacy Act

As part of the FY 2005 FISMA independent evaluation, the OIG asked Carson Associates to
evaluate the agency’s compliance with the Privacy Act. This request was made prior to OMB’s
issuance of the FY 2005 FISMA reporting guidelines, which also include a requirement to report
on implementation of the Privacy Act. Carson Associates met with the agency’s Privacy
Program Officer and Web services representatives, and reviewed applicable agency policies,
procedures, correspondence, and directives. Carson Associates used the questions found in the
OMB Reporting Template for Senior Agency Officials for Privacy as guidance in performing the
evaluation. Carson Associates found that controls for ensuring sufficient protections for privacy
of personnel information as set forth in the E-Government Act are effective and that the agency
is in compliance with the provisions of the Privacy Act.




                                                23
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2005




[Page intentionally left blank]




              24
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2005


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Categorize all NRC information systems, including systems operated by a contractor or
       other organization on behalf of the agency, in accordance with FIPS 199.
    2. Complete annual self-assessments for FY 2006 no later than August 1, 2006 and
       thereafter.
    3. Develop and implement procedures to ensure contingency plans are tested annually,
       regardless of the status of the systems’ certification and accreditation.
    4. Maintain current copies of certification and accreditation memoranda for systems
       provided by other Federal agencies.
    5. Maintain current copies of self-assessments for systems provided by other Federal
       agencies.
    6. Maintain current copies of annual contingency plan testing results for systems provided
       by other Federal agencies.
    7. Develop and implement procedures for performing oversight of major applications and
       general support systems operated by a contractor or other organization on behalf of the
       agency.
    8. Review and update the six completed e-authentication risk assessments to correct
       inaccuracies and inconsistencies with FIPS 199 security categorizations.
    9. Develop and implement a plan for completing the remaining e-authentication risk
       assessments.
    10. Develop and implement procedures for ensuring employees and contractors with
        significant IT security responsibilities are identified, receive security awareness and
        training, and the individual and associated training are readily identifiable.




                                                 25
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2005


5      OIG Response to Agency Comments

OIG provided this report in draft to agency officials and discussed its content at an exit
conference on September 22, 2005. We modified the report as we determined appropriate in
response to our discussion. Agency officials generally agreed with the report’s findings and
recommendations and opted not to include formal comments.




                                               26
                                                                 Appendix A – Scope and Methodology
                                                                            Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2005

SCOPE AND METHODOLOGY

The scope of this independent evaluation of NRC’s Implementation of FISMA for FY 2005
included:

   •   NRC’s AIS security program as described in MD an Handbook 12.5
   •   NRC’s implementation of the Privacy Act

To conduct the independent evaluation, the independent evaluation team met with agency staff
responsible for implementing the agency’ AIS security program, reviewed certification and
documentation for the agency’s operational information systems, and reviewed other
documentation provided by the agency that demonstrated their implementation of FISMA.

All analyses were performed in accordance with guidance from the following:

   •   National Institute of Standards and Technology standards and guidelines
   •   Nuclear Regulatory Commission Management Directive and Handbook 12.5, NRC
       Automated Information Systems Security Program
   •   NRC Office of the Inspector General audit guidance

This work was conducted between March 2005, and September 2005. The work was conducted
by Jane M. Laroussi, CISSP; Diane Reilly; Kelby M. Funn, CISA; and S.J. Dobbs, CISA, from
Richard S. Carson and Associates, Inc.




                                              27
                                  Appendix A – Scope and Methodology
                                             Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2005




[Page intentionally left blank]




              28
                                                     Appendix B – Status of Contingency Plan Testing
                                                                           Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2005

OFFICIAL USE ONLY PAGE REDACTED FOR PUBLIC RELEASE




                                              29
                                                     Appendix B – Status of Contingency Plan Testing
                                                                           Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2005

OFFICIAL USE ONLY PAGE REDACTED FOR PUBLIC RELEASE




                                              30
                                                     Appendix B – Status of Contingency Plan Testing
                                                                           Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2005

OFFICIAL USE ONLY PAGE REDACTED FOR PUBLIC RELEASE




                                              31
                                  Appendix B – Status of Contingency Plan Testing
                                                        Independent Evaluation of
                                      NRC’s Implementation of FISMA for FY 2005




[Page intentionally left blank]




              32
                                                                                                                Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                                                                                   Independent Evaluation of
                                                                                                                                   NRC’s Implementation of FISMA for FY 2005




                                                                                        Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                                               Agency Name:




                                                                                                              Question 1 and 2



1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).



            To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
            1) Continue to use NIST Special Publication 800-26, or,
            2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53


            Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
            requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.




2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of systems
which have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.




                                                                                                  Question 1                                                                                Question 2
                                                                        a.                            b.                             c.                            a.                         b.                         c.
                                                               FY 05 Agency Systems            FY 05 Contractor            FY 05 Total Number of         Number of systems         Number of systems for Number of systems for which
                                                                                                   Systems                        Systems              certified and accredited    which security controls contingency plans have been
                                                                                                                                                                                    have been tested and     tested in accordance with
                                                                                                                                                                                  evaluated in the last year    policy and guidance




                                    FIPS 199 Risk Impact         Total        Number          Total        Number                        Number         Total        Percent of      Total        Percent of
Bureau Name                                 Level               Number       Reviewed        Number       Reviewed       Total Number   Reviewed       Number          Total        Number          Total       Total Number Percent of Total
NRC                                   High                               4               0            0              0              4              0            1     #DIV/0!                2     #DIV/0!                   0     #DIV/0!
                                      Moderate                           4               0            0              0              4              0            0     #DIV/0!                2     #DIV/0!                   1     #DIV/0!
                                      Low                                0               0            0              0              0              0            0     #DIV/0!                      #DIV/0!                   0     #DIV/0!
                                      Not Categorized                   19               0            7              0             26              0           10     #DIV/0!               17     #DIV/0!                   5     #DIV/0!
                                   Sub-total                            27               0            7              0             34              0           11     #DIV/0!               21     #DIV/0!                   6     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0              0            0     #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Agency Totals                          High                              4               0            0              0              4              0            1     #DIV/0!                 2    #DIV/0!                   0     #DIV/0!
                                      Moderate                           4               0            0              0              4              0             0    #DIV/0!                 2    #DIV/0!                   1     #DIV/0!
                                      Low                                0               0            0              0              0              0             0    #DIV/0!                 0    #DIV/0!                   0     #DIV/0!
                                      Not Categorized                   19               0            7              0             26              0            10    #DIV/0!                17    #DIV/0!                   5     #DIV/0!
                                   Total                                27               0            7              0             34              0           11     #DIV/0!               21     #DIV/0!                   6     #DIV/0!




                                                                                                                     33
                                                                                                                   Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                                                                                      Independent Evaluation of
                                                                                                                                      NRC’s Implementation of FISMA for FY 2005


                                                                                                                    Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.



                                    The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                    agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                    national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 requirements by a contractor
                                    or other organization is not sufficient, however, self-reporting by another Federal agency may be sufficient.

                                    Response Categories:
                 3.a.                                                                                                                                              - Mostly, for example, approximately 81-95% of the time
                                         - Rarely, for example, approximately 0-50% of the time
                                         - Sometimes, for example, approximately 51-70% of the time
                                         - Frequently, for example, approximately 71-80% of the time
                                         - Mostly, for example, approximately 81-95% of the time
                                         - Almost Always, for example, approximately 96-100% of the time




                                    The agency has developed an inventory of major information systems (including major national security systems) operated
                                    by or under the control of such agency, including an identification of the interfaces between each such system and all other
                                    systems or networks, including those not operated by or under the control of the agency.

                                    Response Categories:
                 3.b.                    - Approximately 0-50% complete                                                                                                 - Approximately 51-70% complete
                                         - Approximately 51-70% complete
                                         - Approximately 71-80% complete
                                         - Approximately 81-95% complete
                                         - Approximately 96-100% complete




                 3.c.               The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                      no



                                    The OIG generally agrees with the CIO on the number of information systems
                 3.d.               used or operated by a contractor of the agency or other organization on behalf of      the agency.                                                                Yes




                 3.e.               The agency inventory is maintained and updated at least annually.                                                                                                 no




                 3.f.               The agency has completed system e-authentication risk assessments.                                                                                                Yes


                                                                                                                    Question 4




Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the
following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time




                                    The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                 4.a.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.




                                    When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                 4.b.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    implement, and manage POA&Ms for their system(s).



                                    Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                 4.c.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    progress.



                 4.d.               CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                   - Almost Always, for example, approximately 96-100% of the time


                 4.e.               OIG findings are incorporated into the POA&M process.                                                                          - Almost Always, for example, approximately 96-100% of the time


                                    POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                 4.f.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    timely manner and receive appropriate resources

Comments: NRC has two primary tools for tracking IT security weaknesses. At a high level, NRC uses the POA&M submitted to OMB to track corrective actions from the OIG annual independent evaluation, and the agency’s annual
review. The POA&M may also include corrective actions resulting from other security studies conducted by or on behalf of NRC. At a more detailed level, NRC uses an internal system to track the progress of more specific corrective
actions, such as those resulting from risk assessments, security test and evaluation associated with the certification and accreditation process, and contingency plan testing.




                                                                                                                       34
                                                                                                                 Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                                                                                    Independent Evaluation of
                                                                                                                                    NRC’s Implementation of FISMA for FY 2005


                                                                                                                  Question 5



OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and
standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This
includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans .




                                    Assess the overall quality of the Department's certification and accreditation process.

                                    Response Categories:
                                         - Excellent
                                         - Good                                                                                                                  - Poor
                                         - Satisfactory
                                         - Poor
                                         - Failing



Comments: See attached narrative.




                                                                                                                      35
                                                                                          Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                                                             Independent Evaluation of
                                                                                                             NRC’s Implementation of FISMA for FY 2005


                                                                   Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                                        Agency Name:


                                                                                         Question 6

                        Is there an agency wide security configuration policy?
       6.a.                                                                                                                                             Yes
                        Yes or No.

                        Comments:



                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
       6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                        the systems running the software.




                                                                                                                            Approximate the extent of implementation of the security
                                                                                                                            configuration policy on the systems running the software.

                                                                                                                            Response choices include:
                                                                                                                            - Rarely, or, on approximately 0-50% of the
                                                                                                                              systems running this software
           Product                                                                                                          - Sometimes, or on approximately 51-70% of
                                                                                                                              the systems running this software
                                                                                                                            - Frequently, or on approximately 71-80% of
                                                                  Addressed in agencywide
                                                                                                                              the systems running this software
                                                                          policy?              Do any agency systems        - Mostly, or on approximately 81-95% of the
                                                                                                 run this software?           systems running this software
                                                                                                                            - Almost Always, or on approximately 96-100% of the
                                                                             Yes, No,                                       systems running this software
                                                                              or N/A.                  Yes or No.
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows XP Professional
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows NT
                                                                                 Yes                      Yes               systems running this software
              Windows 2000 Professional
                                                                                 N/A                      No
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2000 Server
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2003 Server
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Solaris
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              HP-UX
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Linux
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Cisco Router IOS
                                                                                 Yes                      Yes               systems running this software
              Oracle
                                                                                 N/A                      No
              Other. Specify: Novell, AIX, Sybase,                                                                                - Almost Always, or on approximately 96-100% of the
              SQL Server, Cisco PIX, IIS, Apache                                 Yes                      Yes
                                                                                                                            systems running this software

Comments: Oracle and Apache - configuration guides are available, but this software is currently not in production. Oracle and Apache are being tested for
planned future production use. IIS - hardening guidelines are included in the Windows 2000/2003 configuration guides. Sybase - no specific configuration
guides exist, however the agency followed best practices and product guidelines from the vendor.
                                                                                         Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                        The agency follows documented policies and procedures for identifying and reporting
       7.a.             incidents internally.                                                                                                           Yes
                        Yes or No.
                        The agency follows documented policies and procedures for external reporting to law
       7.b.             enforcement authorities.                                                                                                        Yes
                        Yes or No.
                        The agency follows defined procedures for reporting to the United States Computer
       7.c.             Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                      Yes
                        Yes or No.
Comments:




                                                                                            36
                                                                           Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                                              Independent Evaluation of
                                                                                              NRC’s Implementation of FISMA for FY 2005


                                                                          Question 8

                 Has the agency ensured security training and awareness of all employees, including
                 contractors and those employees with significant IT security responsibilities?

                 Response Choices include:
                 - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                                        - Mostly, or approximately 81-95% of employees have sufficient
         8        - Sometimes, or approximately 51-70% of employees have sufficient training           training
                  - Frequently, or approximately 71-80% of employees have sufficient training
                  - Mostly, or approximately 81-95% of employees have sufficient training
                  - Almost Always, or approximately 96-100% of employees have sufficient training




                                                                          Question 9



                 Does the agency explain policies regarding peer-to-peer file sharing in IT security
         9       awareness training, ethics training, or any other agency wide training?                                            Yes
                 Yes or No.




The following supplemental information is provided in support of the Office of Management and
Budget FY 2005 Federal Information Security Management Act (FISMA) Reporting Template
for Agency Inspectors General for the Nuclear Regulatory Commission (NRC). The
independent evaluation of NRC’s implementation of FISMA for FY 2005 was conducted by
Richard S. Carson and Associates, Inc. (Carson Associates) on the behalf of the NRC Office of
the Inspector General (OIG).

Question 1a. NRC has a total of 30 production systems. Of the 30, 12 are general support
systems (all operational), and 18 are major applications (15 operational, 3 in development). As
required by FISMA, the OIG selected five NRC operational systems for evaluation during the
FY 2005 FISMA independent evaluation. However, during a status meeting with the agency, the
OIG learned that the certification and accreditations of the systems chosen for evaluation had
either expired and the systems were operating under an interim authorization to operate (IATO),
or were due to expire in FY 2005, and that their re-certification and re-accreditation would not be
completed before completion of the FY 2005 FISMA independent evaluation. Furthermore,
there were no other systems to substitute because they were either reviewed during the FY 2004
FISMA independent evaluation, or had certification and accreditations that were due to expire
before the end of the year. Without enough systems with current certification and accreditations,
Carson Associates could not perform an evaluation of a representative subset of agency systems
for the FY 2005 FISMA independent evaluation.

Question 1b. NRC has a total of seven systems operated by a contractor or other organization on
behalf of the agency (two major applications and five general support systems). Of the seven,
three are operated by other Federal agencies, two are operated by federally funded research and
development centers, and two are operated by contractors supporting the agency. Carson
Associates did not review any of the seven systems operated by a contractor or other
organization on behalf of the agency for evaluation during the FY 2005 FISMA independent
evaluation, as there were no potential candidates to review. Of the seven, four13 were evaluated

13
     The FY 2004 FISMA independent evaluation included a review of three contractor operations and facilities.
     These three contractor operations and facilities support a total of four agency systems operated by a contractor or
     other organization on the behalf of the agency.


                                                                              37
                                                         Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                            Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2005

during the FY 2004 FISMA independent evaluation (three operated by other Federal agencies
and one operated by a federally funded research and development center), and therefore were not
candidates for review in FY 2005. The other three systems operated by a contractor or other
organization on behalf of the agency were not candidates for evaluation in FY 2005 because
there was not sufficient information available to perform an evaluation. The agency stated that
in FY 2005 it would be performing self-assessments in accordance with NIST SP 800-26 on its
contractor systems. However, the self-assessments were not completed in time for inclusion in
the FY 2005 FISMA independent evaluation.

Question 2. Since Carson Associates was unable to evaluate any of NRC’s systems, the metrics
in Question 2 represent the status for all NRC systems, not just a subset of systems.

Question 2a. Of the 11 systems that are certified and accredited, 3 are systems operated by a
contractor or other organization on behalf of the agency. These three systems are operated by
other Federal agencies. NRC presumes that the two Federal agencies that operate these systems
are also following FISMA and guidelines from the National Institute of Standards and
Technology (NIST) (these agencies have not allowed NRC to conduct their own review).
Carson Associates verified that there are agreements in place with the two Federal agencies
providing services to NRC and that the agreements include requirements to comply with
applicable Federal and respective agency information systems security policies, mandates, and
instructions. However, the agency does not maintain copies of all certification and accreditation
documentation for these systems. The other four systems operated by a contractor or other
organization on behalf of the agency have not been certified and accredited.

Question 2b. NRC meets the FISMA requirement to test and evaluate the security controls of
agency information system by performing annual self-assessments on the systems. NRC
developed self-assessment templates for major applications and general support systems. For FY
2005 NRC also developed a site self-assessment template for security assessments at regional
offices, resident inspector sites, NRC locations other than headquarters and the regional offices,
and contractor sites hosting NRC information systems. The NRC self-assessment templates are
based on NIST SP 800-26 and include references to NIST SP 800-53 to provide a general
indication of control coverage. However, as of September 12, 2005, Carson Associates had only
received self-assessments for 18 of the NRC’s 27 operational systems.14 The first self-
assessment was not received until September 2, 2005. Subsequent to completion of field work,
the agency provided self-assessments for the other nine operational systems. However, these
self-assessments were not provided in time to review.

Of the 21 systems that have had their security controls tested and evaluated in the last year, 3 are
systems operated by a contractor or other organization on behalf of the agency. These three
systems are operated by other Federal agencies. NRC presumes that the two Federal agencies
that operate these systems are also following FISMA and NIST guidelines (these agencies have
not allowed NRC to conduct their own review), and have therefore conducted an annual review.
However, the agency does not request a copy of the annual review for these systems from the
other Federal agencies. As previously discussed, the agency stated that in FY 2005 it would be
performing self-assessments on its contractor systems. However, Carson Associates has not
14
     One of the self-assessments addresses eight individual general support systems.


                                                           38
                                              Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                 Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2005

received any self-assessments for the four other systems operated by a contractor or other
organization on behalf of the agency. Subsequent to completion of field work, the agency
provided self-assessments for the four other systems operated by a contractor or other
organization on behalf of the agency. However, these self-assessments were not provided in
time to review.

Question 2c. Of the 6 systems that have had their contingency plans tested in the last year, 3 are
systems operated by a contractor or other organization on behalf of the agency. These three
systems are operated by other Federal agencies. NRC presumes that the two Federal agencies
that operate these systems are also following FISMA and NIST guidelines (these agencies have
not allowed NRC to conduct their own review), and have therefore performed an annual
contingency plan test of their systems. However, the agency does not verify that the contingency
plans have been tested and evaluated for these systems on an annual basis. The agency does not
have contingency plans for the other four systems operated by a contractor or other organization
on behalf of the agency. Subsequent to the completion of field work, Carson Associates was
informed that contingency plan testing had been performed on 10 additional agency systems (8
of which are general support systems resulting from the decomposition of the agency’s local area
network/wide area network general support system). However, the agency has not provided
documentation indicating the testing has been completed.

Question 3a. As previously discussed, NRC presumes that the two Federal agencies that operate
three of the seven contractor systems are also following FISMA and NIST guidelines (these
agencies have not allowed NRC to conduct their own review). However, the agency does not (1)
maintain copies of all certification and accreditation documentation for these systems, (2) verify
that the security controls have been tested and evaluated for these systems on an annual basis,
and (3) verify that the contingency plans have been tested and evaluated for these systems on an
annual basis.

The agency has not performed sufficient oversight and evaluation of four of the seven contractor
systems to ensure the information systems meet requirements of FISMA, OMB policy, NIST
guidelines, and agency policy. The agency stated that for two of the four systems (the two
contractor support systems), security guidelines are written into the relevant contracts and the
contractors must follow NRC security procedures. However, the agency has no documentation
demonstrating that these systems meet FISMA requirements, specifically the requirement for
certification and accreditation, annual testing and evaluation of security controls, and annual
contingency plan testing. Carson Associates could not determine how NRC performs oversight
of the other two contractor systems (the two federally funded research and development centers).




                                                39
                                                       Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                          Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2005

Question 3b. NRC maintains information on its information systems in two different inventory
systems. One is primarily used to meet the requirements of FISMA, while the other is primarily
used to support the agency’s enterprise architecture. While FISMA only requires agencies to
maintain an inventory of major information systems (major applications and general support
systems), NRC also includes two other types of systems in its inventories – Listed15 and Other.16
Carson Associates found that the agency’s inventory is only 51-70 percent completed because
(1) information in both of the agency’s inventory systems is inaccurate and inconsistent and (2)
only one of the inventory systems contains information on system interfaces and that information
is also inaccurate and inconsistent.

Question 3.c. Carson Associates generally agrees with the Chief Information Officer (CIO) on
the number of agency owned major applications and general support systems, but does not agree
with the CIO on the number of agency owned systems in the listed and other categories.

Question 3f. In FY 2004, the agency stated that it had begun assessing systems for e-
authentication risk. A contract was awarded in the 3rd Quarter FY 2004 and the agency stated it
was on track to meet the December 15, 2004, deadline for classifying all major applications.
However, Carson Associates found that e-authentication risk assessments have been completed
for only 6 of the agency’s 27 operational systems. The agency stated that e-authentication risk
assessments will be supported under the interim Information Systems Security contract awarded
August 11, 2005 and are expected to be completed by December 15, 2005. Carson Associates
reviewed the completed e-authentication risk assessments and round them to be incorrect and
inconsistent with the systems’ FIPS 199 security categorizations.

Question 5. As stated previously, only 8 of the 27 operational NRC information systems have
full authorization to operate (i.e., they have a current certification and accreditation). As a result,
the NRC Office of the Inspector General requested Carson Associates to undertake an overall
review of the NRC’s certification and accreditation efforts. The findings from this review were
reported in a separate report that made two recommendations to the agency to improve
certification and accreditation efforts at the agency. The following is a summary of the findings
from the evaluation of NRC’s certification and accreditation efforts.

NRC’s general support systems have not had a full certification and accreditation performed in
the past 3 years. Therefore the agency does not know whether the security controls for these
general support systems are adequate, creating unknown potential risk. As a result, all NRC
information systems that depend on the security controls provided by these general support
systems inherit that unknown potential risk. The majority of NRC information systems are not
certified and accredited because (1) the certification and accreditation has lapsed or was never
completed and (2) NRC information systems are being re-certified and re-accredited using new
NIST requirements. As a result, potential risks to agency information systems are unknown.
15
    A Listed system is a computerized information system or application that (1) processes sensitive information
   requiring additional security protections and (2) may be important to an NRC office’s or region’s operations, but
   which is not a major application or general support system when viewed from an agency perspective. Sensitive
   data may include individual Privacy Act information, law enforcement sensitive information, sensitive contractual
   and financial information, safeguards, and classified information.
16
    An Other system is an NRC system that does not require additional security protections and is adequately
   protected by the security provided by the NRC local area network/wide area network.


                                                         40
                                                Appendix C – FY 2005 FISMA Reporting Template for Agency IGs
                                                                                   Independent Evaluation of
                                                                   NRC’s Implementation of FISMA for FY 2005



Question 8. NRC ensures all employees and contractors receive security awareness and training.
However, the agency lacks procedures for ensuring employees with significant information
technology (IT) security responsibilities receive security training and awareness. The agency
stated that it had difficulty in gathering the information needed to report on the total number of
employees with significant IT security responsibilities, the number of those employees who have
received specialized training as described in NIST SP 800-16, and the total costs for providing IT
training. The agency’s training system does not identify which employees have significant IT
security responsibilities and what courses are considered related to IT security. The agency
gathered its data by asking each office and region to identify staff in their offices with significant
IT security responsibilities, describe any training that is related to IT security that those staff
members have taken, and the cost of that training. The agency’s training system also does not
account for any training the employee may have taken on their own time.




                                                  41
